December 9, 2019
Mr. Scott S. Harris
Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543
Re:

Wells Fargo & Co. v. City of Miami, No. 19-688

Dear Mr. Harris:
On behalf of Respondent City of Miami, and pursuant to Supreme Court Rule 30.4, I
write to request a 30-day extension of time to file the Respondent’s brief in opposition to the
petition for a writ of certiorari, to and including January 27, 2019, in the above-referenced
matter. The petition for certiorari was docketed on November 26, 2019, and the brief in
opposition is currently due on December 26, 2019. This request will not prejudice Petitioners’
interests. The request is made necessary for the following reasons:
1.

The due date for the Brief in Opposition overlaps substantially with Counsel’s
responsibilities with respect to briefs due in several other cases, including Joplin v.
Leggett, No. 2015-46430, Harris County, Texas District Court, due December 12, 2019;
Hernandez v. Cardin, No. BC637928, Los Angeles County Superior Court, due
December 18, 2019; State of Rhode Island v. Shell Oil Co., No. 19-1818, due December
27, 2019; and Bd. Of Cty. Comm’rs of Boulder Cty. v. Suncor Energy (USA) Inc., No.
19-1330, due December 27, 2019.

2.

In addition, I have a meeting with the Connecticut Attorney General on December 17,
2019 to discuss possible cooperative litigation on a constitutional challenge.

3.

Finally, the current due date falls within the upcoming holiday season, when counsel has
a number of family obligations.

455 Massachusetts Avenue, N.W., Suite 152, Washington, DC 20001
Tel (202) 944-2874 – E-Mail robert.peck@cclfirm.com

Scott S. Harris, Clerk of Courts
Supreme Court of the United States
Request for an Extension of Time to File, No. 19-688
Page 2 of 2

Given these circumstances, Respondent respectfully requests a 30-day extension of time
to file the brief in opposition to certiorari to and including January 27, 2020.
Sincerely yours,

Robert S. Peck
Counsel of Record for Respondent

cc: Neil Kumar Katyal, Counsel for Petitioners

